Semiannual Report to the Congress
October 1, 2001 – March 31, 2002
                      Mission Statement
The Department of Defense Inspector General promotes national
security and integrity and credibility in Government by conducting
objective and independent audits, investigations, evaluations, and
  other activities to prevent, detect, and help correct problems in
   DoD programs and to identify opportunities for improving
                   efficiency and effectiveness.
                                           FOREWORD

        The Inspector General of the Department of Defense has both a traditional and a modern
statutory mission. The former traces to General George Washington’s Inspector General during the
Revolutionary War, General Frederick Wilhelm Baron von Steuben, whose monument graces the
Northwest corner of Lafayette Park, across from the White House. The latter is codified in the
Inspector General Act of 1978, as amended.

        Since the Revolutionary War, the military inspector general in America has served as "an
extension of the eyes, ears, and conscience of the Commander." Consistent with this traditional
mission, the Inspector General Act of 1978, as amended, requires that the Inspector General of the
Department of Defense serve as “the principal adviser to the Secretary of Defense for matters
relating to the prevention of fraud, waste, and abuse in the programs and operations of the
Department." The Inspector General Act also requires that the Inspector General of the Department
of Defense, like every other statutory inspector general, keep his agency head and the Congress
“fully and currently informed . . . concerning fraud and other serious problems, abuses, and
deficiencies relating to the administration of programs and operations administered or financed by”
the Department of Defense. The 1982 amendments to the Inspector General Act impose upon the
Office of the Inspector General of the Department of Defense a number of military-specific
“additional duties,” including a duty to "give particular regard to the activities of the internal audit,
inspection, and investigative units of the military departments with a view towards avoiding
duplication and insuring effective coordination and cooperation."

        Chapter One reviews significant activities of the Office of the Inspector General during the
reporting period, which have resulted in $3.1 billion in potential monetary benefits from audits;
$863 million in investigative recoveries; and 349 felony convictions. Chapter Two focuses on one
of the most publicized challenges facing the Department of Defense, the pervasive abuse of
government charge cards. The classified annex to this report details intelligence review activities
of the Office of Inspector General.

        I hope that this report helps promote a culture of both accountability and intelligent risk-
taking throughout the Department of Defense, so that the Department of Defense may better satisfy
its constitutionally-based mission to “provide for the common defense” while also satisfying the
requirement in Article I of the Constitution that “a regular Statement and Account of the Receipts
and Expenditures of all public Money shall be published from time to time.”
This page left blank intentionally
Semiannual Report to the Congress                                                                                              Table of Contents




                                              TABLE OF CONTENTS
                                                                                                                                                   Page

CHAPTER ONE - SIGNIFICANT ACTIVITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                             1
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
    Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               1
    Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            8
    Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  10
    Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     13
    OIG DoD Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                14
    Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            15

CHAPTER TWO - CHARGE CARD ABUSE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                           17
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       17
    Purchase Cards. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17
    Travel Cards. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        20
    Air Card Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             20
    Fleet Card Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             20
    Recent Management Actions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     21
    Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        22

APPENDICES
    A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                            23
    B. OIG DoD Audit Reports Issued Containing Quantifiable Potential
       Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 31
    C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 33
    D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        35

FIGURES
    1.     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        2
    2.     Nature of Substantiated Allegations Against Senior
           Officials During 1st Half FY 02 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     12
    3.     DoD Total Senior Official Cases - FY 99 - FY 02 (1st Half) . . . . . . . . . . . . . . . . . . . . .                                      12




                                                                          i
Table of Contents                                        Semiannual Report to the Congress




                    This page left blank intentionally




                                  ii
Semiannual Report to the Congress                                                           Chapter One




CHAPTER ONE - SIGNIFICANT ACTIVITIES

INTRODUCTION                This chapter summarizes the significant activities of the Office of the
                            Inspector General of the Department of Defense (OIG DoD) components
                            and their work with other members of the DoD oversight and federal law
                            enforcement communities.

CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs) continue
INVESTIGATIONS              to combat crime affecting the DoD. The Defense Criminal Investigative
                            Service (DCIS) focuses on procurement fraud, health care fraud,
                            computer crimes, major thefts, and significant crimes impacting Defense
                            Agencies. The U.S. Army Criminal Investigation Command, the Naval
                            Criminal Investigative Service (NCIS), and the Air Force Office of
                            Special Investigations (AFOSI) also investigate procurement fraud, but
                            focus mostly on other crimes against persons and property within their
                            respective Military Departments, as well as force protection. The AFOSI
                            and NCIS also conduct counterintelligence investigations and operations.

                            Monetary recoveries and fines related to all criminal investigations
                            throughout DoD totaled more than $863 million. Figure 1 (page 2)
                            displays other statistical results achieved by the four investigative organi-
                            zations during the semiannual period. The following are examples of
                            significant fraud cases.

 Financial Crimes           Offenses considered to be financial crimes generally involve contract
                            mischarging or defrauding DoD pay systems.

                            A major defense contractor in Indiana paid $4 million in a civil settlement
                            to resolve an issue that was brought forward to the DoD as a voluntary
                            disclosure. The contractor discovered that a company it recently
                            purchased failed to comply with federal statutory and regulatory require-
                            ments involving commission payments to sales representatives in
                            connection with foreign military financed contracts. The prior company
                            improperly included commission payments to numerous foreign agents in
                            30 contracts financed by the Defense Security Cooperation Agency
                            between 1984 and 1996.

                            Two brothers, owners of a moving and storage company from the Bronx,
                            New York, pled guilty to mail fraud in connection with a false billing
                            scheme associated with moves made for the DoD and other customers.
                            The scheme resulted in overcharging the DoD and the other customers
                            approximately $200,000. The moving company, a subcontractor to a
                            major van lines company, created false weight scale invoices that inflated
                            the actual load weights and resulted in increased payments. One of the
                            brothers was sentenced to 5 years unsupervised probation, ordered to pay

                                                   1
Chapter One                                                            Semiannual Report to the Congress




                  Judicial and Administrative Actions
                       As a Result of Investigations by All Four DCIOs
                               (October 2001 – March 2002)

                                350

                                300

                                250

                                200        296
                                                         209
                                150

                                100

                                 50
                                            53            59           15            24
                                  0
                                        Convictions   Indictments   Debarments   Suspensions
              Other                        296           209
                                                                       15            24
              Procurement/Health Care       53            59
              Fraud


                                                 Figure 1


                      a $100 special assessment, and restitution of $18,550. The other is
                      awaiting sentencing.

                      The president of a janitorial and maintenance services company pled
                      guilty to impersonating a contracting officer, wire fraud, and mail fraud.
                      While portraying herself as a contracting officer, the president awarded
                      contracts to various companies to supply goods to the DoD on contracts
                      that had actually been awarded to her firm. The DoD made payment to her
                      while the companies providing the goods made separate requests for
                      payment. The president defrauded the DoD and other companies in excess
                      of $364,000. She was sentenced to 18 months confinement, 36 months
                      supervised release, and was ordered to pay a $457,715 fine.

                      The caretaker for a military retiree pled guilty to embezzlement and
                      conversion of public money associated with military retirement benefits
                      deposited into an account held jointly with the military retiree. The
                      account continued to accumulate military retirement payments after the
                      retiree’s death, and the caretaker withdrew funds for her own use. She was
                      sentenced to 5 years probation, which included 6 months home detention
                      and restitution of $42,330.

                      An investigation based on information from the Air Force Center for
                      Environmental Excellence (AFCEE), revealed that a company pressured
                      analysts to falsify data concerning test equipment so AFCEE standards

                                                 2
Semiannual Report to the Congress                                                           Chapter One




                            would be met. The investigation revealed that the alleged falsification of
                            laboratory results occurred over long periods of time and impacted several
                            military installations. The company pled guilty in federal district court to
                            conspiracy to defraud the United States and was fined $9 million,
                            sentenced to probation for 3 years and 6 months; and paid a $400 special
                            assessment fee. The company entered into a civil settlement with the
                            Department of Justice for $8.7 million. One company employee pled
                            guilty to making fraudulent demands against the United States and was
                            sentenced to 3 years probation. A second employee pled guilty to conspir-
                            acy to defraud the United States and was sentenced to 5 years probation
                            and 180 days home confinement. Three additional employees pled guilty
                            to making fraudulent demands against the United States and were
                            sentenced to 2 years probation.

                            The owner of a travel service company was convicted on 11 counts of
                            mail fraud and sentenced to 21 months in federal prison, 3 years
                            probation, and was ordered to pay $80,405 in restitution to the affected
                            military service. The travel service was awarded a contract for unofficial
                            travel services for two Florida military installations. The contract required
                            that the company report and pay commissions to the government on all
                            on-base leisure travel sales. Federal search warrants were executed at the
                            company’s three business locations, and computer hard drives and busi-
                            ness documents were seized. Former and current employees confirmed
                            that the owner instructed his on-base agents to neglect to report certain
                            vacation cruise and tour packages to the base, resulting in the loss of
                            commissions to the government.

                            An investigation arising from a DoD Hotline referral resulted in the
                            conviction of three men on charges of conspiracy to defraud the U.S.
                            Government, false statements, false claims, and obstruction of justice. A
                            contractor program manager on an Air Force contract and a contractor
                            consultant assisted the president of a corporation in fraudulently obtaining
                            small disadvantaged business (SDB) status from the Small Business
                            Administration. The SDB status enabled the corporation to receive
                            contracts outside the usual competitive business process. Arrangements
                            were made for the Air Force to purchase computer storage devices and
                            memory units from the corporation. In turn, the president of the
                            corporation would ensure the other two individuals received kickbacks for
                            each storage device sold. The contractor program manager was ordered to
                            pay $3.2 million in restitution, sentenced to 5 years in prison with 2 years
                            supervised probation, and assessed an additional $2,400. The contractor
                            consultant was ordered to pay $2.8 million in restitution, sentenced to 20
                            months imprisonment with 2 years supervised probation, and assessed
                            $1,600. The president of the corporation was ordered to pay $350,000 in
                            restitution, sentenced to 3 years probation, and fined $25,000. The corpo-
                            ration was sentenced to 2 years probation and ordered to pay restitution in

                                                   3
Chapter One                                               Semiannual Report to the Congress




                 the amount of $3.75 million. Administratively, the corporation, the
                 program manager, and contractor consultant were suspended from
                 contracting with the government, and the corporation has been proposed
                 for debarment.

 Medical Fraud   Efforts to combat fraud against TRICARE and other government health
                 care programs resulted in many successes during this 6-month period. The
                 following sample cases were jointly investigated by multiple federal law
                 enforcement agencies, and the recovered amounts will be apportioned
                 among the agencies’ programs that were victimized, including DoD.

                 A pharmaceutical products company was sentenced in December 2001 to
                 5 years probation and was ordered to pay $290 million in criminal fines
                 and a $585 million civil settlement in connection with its fraudulent drug
                 pricing and marketing conduct with regard to Lupron, a drug sold
                 primarily for treatment of advanced prostate cancer. The settlement
                 resolved allegations that the company set the average wholesale price of
                 Lupron at a much higher level than the price for which wholesalers or
                 distributors actually sold the drug, resulting in submission of falsely
                 inflated claims for reimbursement. The settlement also resolved alle-
                 gations of illegal incentives and free samples of Lupron provided to
                 physicians in return for their exclusive use of the drug. The loss to
                 TRICARE and other federal health care programs was $145 million.

                 A civil settlement of $16 million was reached between the U.S. Govern-
                 ment and an integrated health care provider that operates hospitals,
                 clinics, nursing homes, and other health care facilities in Minnesota. The
                 settlement was a result of an investigation into allegations that the health
                 care provider violated the False Claims Act by knowingly seeking reim-
                 bursement from government health care programs, including TRICARE,
                 through improper billing, such as upcoding and double billing. The
                 settlement also resolved three whistleblower lawsuits, which contained
                 allegations that the health care provider knowingly retained overpayments
                 after its own audit identified submission of erroneous claims.

                 A TRICARE provider was sentenced to 755 months imprisonment after
                 being convicted of 4 counts of manslaughter, 5 counts of drug trafficking,
                 and 1 count of racketeering in connection with the death of five patients
                 who overdosed on drugs such as Oxycontin. The investigation disclosed
                 that the provider issued more prescriptions for Oxycontin than any other
                 Florida provider and was known to pharmacists for prescribing a
                 potentially lethal mix of medicines they called “Graves Cocktail.”

                 Healthwise Medical Rehabilitation Centers (Healthwise) of Chesapeake
                 and Virginia Beach, Virginia and their owner were found guilty on 24
                 counts of false claims related to health care fraud. The owner was

                                       4
Semiannual Report to the Congress                                                           Chapter One




                            sentenced to 30 months in prison, 3 years supervised probation, 500 hours
                            of community service, and was ordered to pay a $25,000 fine, $87,379 in
                            restitution, and a $2,400 special assessment fee. Healthwise was
                            sentenced to 3 years probation and ordered to pay a $158,000 fine and a
                            $9,600 special assessment. Healthwise fraudulently billed for chiropractic
                            services that were not covered under TRICARE by using provider identi-
                            fication numbers of medical doctors who were employed by Healthwise
                            to perform initial exams on patients before receiving chiropractic services.

 Product                    Counterfeit material and other forms of unauthorized substitution of
 Substitution               products into DoD inventories are one of our highest priorities for
                            deterrence, investigation, and prosecution.

                            An aircraft parts company and its president were found guilty of one
                            count of mail fraud for substituting commercial o-rings for use in aircraft
                            fuel systems and falsely representing that the parts met contractual
                            requirements. On December 21, 2001, the president was sentenced to 30
                            months incarceration, 3 years supervised probation, and ordered to pay a
                            $100 special assessment. Both defendants were also ordered to pay resti-
                            tution of $421,606. The problem with o-rings was discovered on
                            August 6, 1999, when a U.S. Air Force B-1B bomber declared an in-flight
                            emergency. After its safe landing, the ground crew traced the jet fuel leak
                            to the defective o-ring purchased from the company. The defective part
                            caused over $87,000 damage to the aircraft. Both the Federal Aviation
                            Administration and the Government and Industry Data Exchange
                            Program issued safety notices.

                            The vice president of another aircraft parts company in Florida was
                            sentenced to 200 hours of community service, 3 years probation, and
                            ordered to pay a $3,000 fine, $20,000 in restitution, and a $100 special
                            assessment for falsifying and concealing material facts concerning aircraft
                            parts. The investigation disclosed that the company sold counterfeit or
                            unapproved gas turbine engine thermocouple probes, which are used to
                            control the temperature of C-130 aircraft engines.

                            Two former managers of a power supply company in California were
                            sentenced each to 3 years probation, 4 months confinement in a com-
                            munity center, 4 months home detention, and ordered to pay a $300
                            special assessments and a total restitution of $199,134 for falsifying or not
                            performing a contractually required test on power supplies provided to the
                            DoD.

 Environmental              Investigations in this area address matters such as the removal, transport,
 Crimes                     and disposal of hazardous material from DoD installations or contractors.



                                                   5
Chapter One                                              Semiannual Report to the Congress




               A supplier of shopping carts to the Defense Commissary Agency pled
               guilty to two counts of violating the Federal Clean Water Act and was
               sentenced to 18 months probation, ordered to pay a $200,000 fine for each
               count, and a $250 special assessment. The company was also ordered to
               upgrade the pollution control equipment at its plant and to make
               charitable donations in the amount of $10,000. The investigation
               disclosed that the company failed to properly operate and maintain its
               wastewater treatment system by allowing concentrations of chrome and
               nickel to exceed its permit limit.

 Bribery and   The Anti-Kickback Act of 1986 addresses government employees and
 Kickbacks     contractors who engage in bribery and kickbacks in exchange for govern-
               ment contracts and subcontracts.

               An individual formerly employed by the Federal Data Corporation (FDC)
               in Maryland received kickbacks in exchange for preferential treatment
               given to an FDC supplier relative to several DoD contracts. The indi-
               vidual, who was employed as FDC’s director of naval programs, issued
               four purchase orders to Marshall Resources, Incorporated (MRI),
               Durham, North Carolina, totaling approximately $241,500. In return for
               directing the business to MRI, the individual received $72,350. He pled
               guilty to conspiracy to commit mail fraud and was sentenced to 10 months
               confinement, 2 years supervised release, and was ordered to pay $72,350
               in restitution, as well as a fine of $3,000 and a special assessment of $100.

               A former buyer employed by Science Applications International
               Corporation (SAIC), a DoD contractor, and two former employees of
               AM-AR International (AM-AR) were convicted and sentenced for their
               roles in a complex kickback scheme. The scheme involved the issuance of
               several SAIC purchase orders to AM-AR International totaling more than
               $6 million. The buyer received over $107,000 in exchange for directing
               the business to AM-AR. In turn, AM-AR sold SAIC parts kits at grossly
               inflated prices totaling $1.5 million more than the actual cost. The buyer
               subsequently laundered the proceeds of the scheme through offshore bank
               accounts. He was sentenced to 6 months home detention, 5 years super-
               vised probation, and was ordered to pay restitution in the amount of
               $107,384, as well as a special assessment of $1,900. One former AM-AR
               employee was sentenced to 2 years supervised probation and was ordered
               to pay restitution of $8,000 and a special assessment of $100. The other
               former employee was sentenced to 12 months home detention, 5 years
               supervised probation, and was ordered to pay restitution in the amount of
               $189,691, a $2,000 fine, and a special assessment of $3,000.

 Theft         Theft of DoD material and munitions from the supply system and at the
               base level has a direct effect on military operational readiness. Another


                                      6
Semiannual Report to the Congress                                                         Chapter One




                            vulnerability is theft of funds and property using government charge
                            cards, as discussed in Chapter Two.

                            On February 6, 2002, a former vice president of marketing for Boliden
                            Metech in Rhode Island was sentenced to 21 months incarceration,
                            followed by 3 years supervised release. He was ordered to pay a $60,000
                            fine, as well as $799,950 in restitution and a special assessment of $100
                            for conspiracy to commit mail fraud. The former vice president partici-
                            pated in various schemes related to the theft of precious metals from
                            Metech International, a DoD contractor, and its customers. The theft and
                            diversion of these metals generated cash that was used to pay kickbacks to
                            a DoD contractor employee in return for favorable settlements relative to
                            the processing of precious scrap metal. The DoD contractor employee was
                            sentenced to 5 years probation.

                            On November 5, 2001, a Petty Officer Second Class in the U.S. Navy,
                            Atlantic Ordnance Command (AOC) Detachment, Naval Air Station
                            Oceana, Virginia Beach, Virginia, was sentenced under the Uniform Code
                            of Military Justice to 19 months confinement, reduction in grade to an
                            E-1, forfeiture of all pay and allowances, and a bad conduct discharge. He
                            and other members of the AOC Detachment engaged in the theft of
                            government property from local Defense Reutilization and Marketing
                            Offices (DRMOs). The Petty Officer and others signed for the property,
                            including high performance marine engines and related items, under the
                            guise of being reused by the command, when in fact, the property was
                            stolen for personal use and resale in the local community. Approximately
                            $625,607 in stolen property has been recovered to date.

                            On November 6, 2001, an individual was sentenced to 21 months
                            imprisonment, 3 years supervised release, and was ordered to pay restitu-
                            tion of $36,655, as well as a $100 special assessment in connection with
                            his involvement in thefts of government property from the DRMO at Fort
                            Jackson, South Carolina. The individual was formerly employed as the
                            chief of the Tactical Special Equipment Repair Branch at Fort Jackson.
                            The investigation resulted in the recovery of engines, torque converters, a
                            transmission, a lathe, a surface grinder, a bulldozer, a front-end bucket
                            loader, and a generator valued at more than $200,000, much of which was
                            stolen from Fort Jackson.

 Computer Crimes            Criminal activity in the cyber environment continues to grow with
                            viruses, denial of service attacks, and hacker attacks being the most
                            notorious computer crimes. Easy access to the Internet led to another type
                            of computer crime – accessing child pornography using DoD computers.
                            Such pornography is often discovered while examining DoD computers
                            for evidence in other criminal matters or is detected and reported by net-
                            work administrators.

                                                  7
Chapter One                                             Semiannual Report to the Congress




                A program analyst with the Department of the Army, Adelphi, Maryland,
                pled guilty to downloading child pornography to his government
                computer. The analyst was sentenced to 10 months incarceration, 3 years
                of supervised release, and ordered to pay a $10,000 fine and a $100
                special assessment.

                A GS-14 engineer with the U.S. Army Redstone Arsenal pled guilty to
                one count of transporting and shipping child pornography in interstate
                commerce by means of a computer. He was sentenced to 38 months incar-
                ceration, 2 years probation, and ordered to pay a $100 special assessment.

                An Electronic Crimes Task Force, New York, New York, discovered a
                credit card scheme. Several high ranking DoD officers’ identification
                information was stolen via the Internet. One individual pled guilty to one
                count of use of an unauthorized access device and was sentenced to 3
                years probation, 6 months of which shall be spent in home confinement,
                200 hours of community service for each year of probation, and was
                ordered to pay $15,825 in restitution and a $100 special assessment.

 Technology     Technology transfer cases involve the illegal export or acquisition of
 Transfer       sensitive DoD technologies, weapons systems, parts, and intellectual
                property.

                An aviation parts company and its general manager were indicted on three
                counts of fraud and conspiracy. The company and the manager pled guilty
                to committing fraud and an export violation regarding suspected diversion
                of guidance missile and aircraft components. The company was ordered to
                pay a $150,000 fine, serve 5 years probation, and pay a $200 special
                assessment. The manager was sentenced to serve 6 months home-elec-
                tronic detention, 3 years probation, and was ordered to pay a $5,000 fine
                and a $50 special assessment.

                A retired Air Force colonel assigned to the National Reconnaissance
                Office (NRO) allegedly negotiated for employment with the Science
                Applications International Corporation (SAIC) while he was participating
                in NRO contracts with SAIC. In addition, he was alleged to have repre-
                sented SAIC to the NRO on matters for which he was personally and
                substantially responsible while assigned to the NRO while in the Air
                Force. The retired colonel pled guilty to a one-count misdemeanor of
                conflict of interest and was fined $1,000.

CRIMINAL        The Office of Criminal Investigative Policy and Oversight (CIPO) issued
INVESTIGATIVE   one evaluation report during this period: Evaluation of Military Criminal
POLICY AND      Investigative Organizations’ Policies, Practices, and Procedures for
OVERSIGHT       Investigations Involving Child Sexual Abuse, January 11, 2002.


                                      8
Semiannual Report to the Congress                                                           Chapter One




                            The child sexual abuse report indicated that the rates of child sexual abuse
                            in the military are significantly lower than in the United States generally,
                            and DoD policy and training appear adequate to address the primary
                            challenges unique to child sexual abuse investigations. The CIPO found
                            that DoD increased its emphasis on child sexual abuse investigations in
                            the last few years. The report made several recommendations concerning
                            oversight and Service-specific issues, and management generally
                            concurred with the report.

                            On October 10, 2001, the OIG DoD reported on the Department’s policy
                            concerning titling and indexing of individuals in the Defense Clearance
                            and Investigations Index (DCII). This report culminated a CIPO project to
                            assess compliance with DoD Instruction 5505.7, “Titling and Indexing of
                            Subjects of Criminal Investigations in the Department of Defense.” The
                            CIPO recommended several changes to DCII procedures to ensure that all
                            users are initially and periodically thereafter informed of the DCII’s
                            purpose as well as the limitations concerning the content and use of
                            criminal investigative data contained in the DCII. The review of titling
                            and indexing policy and procedures resulted in improvements that will
                            enhance the effectiveness and fairness of this system and help prevent
                            misuse. Formal coordination of the revised DoD Instruction has been
                            accomplished.

                            On October 26, 2001, the Deputy Inspector General forwarded to the
                            Deputy Secretary of Defense a report prepared by CIPO, Department of
                            Defense Process for Decision-Making in Cases of False Claims. The
                            report was in response to the Floyd D. Spence National Defense Authori-
                            zation Act for Fiscal Year 2001, which required the Department to
                            provide a report to Congress describing the policies and procedures for
                            DoD decision-making on issues arising under the Civil False Claims Act.
                            The report describes how, specifically, the Military Departments and DoD
                            Agencies pursue False Claims Act matters.

                            In addition to these reports, in conjunction with the Office of Intelligence
                            Review, CIPO conducted an oversight review of the OIG, National
                            Imagery and Mapping Agency (NIMA). During this review, CIPO
                            assessed the management and effectiveness of the OIG NIMA investi-
                            gative program. The CIPO made specific recommendations to enhance
                            the organization, mission, policies, procedures, training, and staffing of
                            this investigative program.

 Voluntary                  The Voluntary Disclosure Program encourages contractors to disclose
 Disclosure                 potential criminal or civil fraud that may affect their contractual relation-
 Program                    ship with the DoD or the contractor’s responsibility under the Federal
                            Acquisition Regulation. During this reporting period, the government
                            recovered $4.2 million from prior disclosures. Additionally, five new

                                                   9
Chapter One                                                   Semiannual Report to the Congress




                     disclosures were received in this reporting period. These disclosures are
                     being reviewed.

ADMINISTRATIVE       The Office of Departmental Inquiries, OIG DoD, conducts investigations
INVESTIGATIONS       and also performs oversight of investigations conducted by the Military
                     Departments. Those investigations pertain to:

                          •   Allegations of reprisal against military members, Defense
                              contractor employees and nonappropriated fund employees.

                          •   Allegations that military members were referred for mental
                              health evaluations without being afforded the rights prescribed
                              in the DoD Directive and Instruction pertaining to mental health
                              evaluations of members of the armed forces.

                          •   Noncriminal allegations against senior military and civilian
                              officials.

 Whistleblower       During the reporting period, the OIG DoD and the Military Department
 Reprisal Activity   Inspectors General received 245 complaints of whistleblower reprisal. We
                     closed 227 cases during this period. Of those, 156 were closed after
                     preliminary analysis determined further investigation was not warranted,
                     and 71 were closed after full investigation.

                     Of the 71 cases closed after full investigation, 12 (17 percent) contained
                     one or more substantiated allegations of whistleblower reprisal. These
                     cases were referred to commanders and supervisors for corrective action.

 Examples of         An Army Reserve staff sergeant was removed from her work team, denied
 Substantiated       a Joint Service Commendation Award, given two letters of reprimand and
 Whistleblower       an adverse noncommissioned officer evaluation report, and was separated
 Reprisal Cases      from the Army Reserves in reprisal for reporting sexual harassment by her
                     supervisor to her chain of command and an equal opportunity advisor,
                     while deployed to Bosnia. Corrective action is pending.

                     An Army major attached to a Defense agency received an unfavorable
                     officer evaluation report in reprisal for reporting to a Member of Congress
                     and an IG that he was improperly investigated for forging a financial
                     document. A responsible official received an oral admonishment. The
                     major successfully petitioned the Army Board for Correction of Military
                     Records to remove the evaluation report from his record.

                     A Navy lieutenant junior grade was threatened with a relief for cause and
                     reassignment in reprisal for reporting to her chain of command that an
                     order to disburse funds was illegal. Corrective action is pending.

                                           10
Semiannual Report to the Congress                                                         Chapter One




                            Punishment was initiated under Article 15 of the Uniformed Code of
                            Military Justice against an Air Force Reserve senior airman in reprisal for
                            reporting to an IG and the Security Police a physical assault by a chief
                            master sergeant. Corrective action is pending.

 Referrals for Mental       Eighteen cases closed during the reporting period contained allegations of
 Health Evaluations         improper referrals of military members for mental health evaluations. In
                            12 of those cases, it was substantiated that commanders failed to follow
                            the proper procedures for referring a Service member for a mental health
                            evaluation under DoD Directive 6490.1, “Mental Health Evaluations of
                            Members of the Armed Forces.” We continue our efforts with Military
                            Department inspectors general to improve commanders’ knowledge of the
                            Directive’s requirements.

 Senior Official            Figures 2 and 3 (page 12) show results of activity on senior official cases
 Inquiries                  during the period. On March 31, 2002, there were 195 ongoing investi-
                            gations into senior official misconduct throughout the Department, which
                            represented a moderate increase from October 1, 2001, when we reported
                            166 open investigations. Over the past 6 months, the Department closed
                            220 senior official cases, of which 36 (16 percent) contained substantiated
                            allegations. The results of these cases were provided to cognizant
                            management officials for consideration of corrective action.

 Examples Of Cases          In a case that attracted significant media interest and an inquiry from a
 Involving Senior           Member of Congress, we investigated numerous allegations of miscon-
 Officials                  duct involving senior officials at a unified command. The allegations
                            included harassment, fraternization, improper hiring, violation of security
                            regulations, travel improprieties, and conducting a command physical fit-
                            ness run in a manner that resulted in gender discrimination. Most of the
                            allegations--including harassment, fraternization, improper hiring and
                            gender discrimination--were not substantiated. However, we found that
                            certain senior officials ignored DoD security regulations by obtaining the
                            services of a non-citizen translator, failed to properly investigate a
                            resultant security violation, failed to comply with DoD regulations per-
                            taining to testimony in civil trials, and did not properly document
                            justification for the use of premium-class air travel.

                            In another investigation, we substantiated allegations that senior DoD
                            officials reprised against a Service member for making protected
                            communications. The Service member was issued an unfavorable
                            performance evaluation and his orders to a preferred duty assignment
                            were cancelled after he alleged that his supervisor engaged in mismanage-
                            ment.

                            In a third case, we concluded that a senior Defense agency official caused
                            the Government to incur additional expense by unnecessarily extending

                                                  11
Chapter One                                                                               Semiannual Report to the Congress




              Nature of Substantiated Allegations Against Senior Officials
                                During 1st Half FY 02

                                                                          Other
                                                                        Misconduct
              Misuse Gov't
                                                                           25%
               Property/
               Resources
                  17%




                                                                                                               Abuse of
                                                                                                              Authority/
                                                                                                              Favoritism
                                                                                                                29%


                  Improper Personnel                                     Sexual Harassment/
                       Action                                                Improper
                        22%                                                 Relationship
                                                                                 7%


                         Cases Closed: 229                              Substantiated: 36

                                                          Figure 2




                                      DoD Total Senior Official Cases
                                         FY 99 - FY 02 (1st Half)

                  600                                                          578


                                                                        488
                  500                             455

                             401                         402
                  400               369



                  300                                                                        230
                                                                                                   229

                  200
                                                                                     89
                  100                     66                   69
                                                                                                         36

                     0
                                   FY99                 FY00                  FY01         FY02 (1st Half)

                                               Opened          Closed    Substantiated



                         This chart shows the total number of senior official investigations
                                 conducted in the DoD over the past 4 fiscal years.

                                                          Figure 3




                                                         12
Semiannual Report to the Congress                                                          Chapter One




                            her official travel. She also provided testimony during our investigation
                            that was inconsistent with DoD guidelines concerning honesty.

AUDITING                    The central internal audit offices of the DoD are the OIG DoD, the Army
                            Audit Agency, the Naval Audit Service, and the Air Force Audit Agency.
                            These organizations all together issued 172 reports, identifying oppor-
                            tunities for $3.1 billion in monetary benefits. Appendix A lists internal
                            audit reports by major subject area. Appendices B and C list OIG DoD
                            reports with potential monetary benefits and statistically summarize
                            internal audit follow-up activity, respectively.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 17,352 reports issued during the period. Contract
                            auditing resulted in approximately $1,858.3 billion in savings and cost
                            avoidance. Further details are at Appendix D.

 Successful                 Obtaining spare parts at reasonable prices frequently has been difficult for
 Innovation                 the DoD because of unstable demand patterns, price gouging by suppliers,
                            and inadequate market research by overworked DoD buyers. Over the
                            past few years, the OIG DoD has worked closely with other DoD organi-
                            zations, especially the Defense Logistics Agency (DLA), to develop more
                            effective contracting approaches for sole source purchases. In March
                            2002, we reported the results of a particularly innovative initiative, the
                            Strategic Supplier Alliance with Honeywell International, Incorporated.

                            Honeywell, a major supplier of aviation parts, and a cross-agency DoD
                            team implemented a multi-year pricing arrangement based on separate
                            contracts and pricing agreements for catalog, build-to-order, and
                            replenishment spares. As of December 2001, over 1,000 parts had been
                            priced using an innovative cost-based process that indicates a high level
                            of mutual trust. The goal is to price another 1,500 to 2,000 parts over the
                            next year using this method.

                            The new contracts provide better logistics support at lower cost. The DLA
                            has been able to fill requisitions faster and reduce inventory in DoD ware-
                            houses. Prices will be reduced by $59 million for the first 594 items on the
                            alliance contracts over a 12-year period, and administrative costs will be
                            cut for both DoD and Honeywell.

 Significant Open           Managers accepted or proposed acceptable alternatives for 759 (97
 Recommendations            percent) of the 782 OIG DoD audit recommendations made during fiscal
                            year 2001, and similarly high levels of agreement are expected for fiscal
                            year 2002. Many recommendations require complex and time-consuming
                            actions, but managers are expected to make reasonable efforts to comply
                            with agreed-upon implementation schedules. Although most of the 1,522
                            open actions being tracked in the OIG DoD follow-up system are on

                                                  13
Chapter One                                          Semiannual Report to the Congress




              schedule, some delays occur, generally because of unforeseen complica-
              tions, such as resource reductions or difficulty in coordinating new
              guidance before it can be issued. Significant open recommendations
              whose implementation has slipped include the following:

                   •   Recommendations made in 1996 for the Defense Finance and
                       Accounting Service to reduce the backlog of contract fiscal
                       records needing reconciliation and correction. Although the
                       backlog of unreconciled contracts has dropped from 15,000 to
                       8,000, recently the backlog has been fluctuating instead of
                       moving consistently downward. Unreconciled contracts increase
                       the risk of accounting errors and erroneous payments.

                   •   Recommendations made in 1997 and 2000 to improve policy
                       guidance on handling potentially dangerous munitions residue
                       on training and test ranges. The applicable policy documents are
                       still in draft.

                   •   Recommendations made in 1998 to improve management of the
                       electromagnetic frequency spectrum are partially accomplished,
                       but further action is awaiting the results of a study.

                   •   Recommendations made in 2000 to improve controls over the
                       release of technical information ("deemed exports") to foreign
                       governments and individuals.

                   •   A recommendation made in 2000 to establish centers of excel-
                       lence for contracting for services.

                   •   A recommendation made in 2001 for closer monitoring of the
                       accuracy of input to the Defense Contract Action Data System,
                       which is crucial for analyzing DoD contracting operations.

OIG DOD       During this reporting period, the OIG DoD was without a Senate-
TESTIMONY     confirmed Inspector General.

              The Deputy Inspector General testified on February 7, 2002, before the
              Subcommittee on National Security, Veterans Affairs and International
              Relations, House Committee on Government Reform, on the Standard
              Procurement System (SPS). The SPS is a replacement for various non-
              standard systems used to perform most facets of contracting and contract
              administration. Currently it has over 28,000 users. Unfortunately, an OIG
              DoD survey of user satisfaction showed widespread disappointment with
              the new system. The Deputy Inspector General testified that the Depart-

                                   14
Semiannual Report to the Congress                                                        Chapter One




                            ment needed to reconsider the advisability of expanding SPS into weapon
                            system procurement and inventory control point contracting.

                            On March 6, 2002, the Deputy Inspector General provided written
                            testimony on Defense financial management to the Subcommittee on
                            Readiness and Management Support, Senate Armed Services Committee.
                            The Deputy Inspector General summarized recent financial audit results
                            and strongly endorsed the new DoD initiatives.

                            On March 12, 2002, the Deputy Inspector General submitted a written
                            statement for the record of a hearing by the Subcommittee on Technology
                            and Procurement Policy, House Committee on Government Reform, on
                            the Services Acquisition Reform Act of 2002. The statement acknow-
                            ledged that contracting for services had received insufficient emphasis in
                            government acquisition reform efforts, but questioned the need for legis-
                            lation because audits indicated that the problems in this area were caused
                            chiefly by staffing shortages and inadequate training.

                            The Deputy Inspector General testified on Defense financial management
                            on March 20, 2002, before the Subcommittee on Government Efficiency,
                            Financial Management and Intergovernmental Relations. This testimony
                            was similar to the March 6, 2002, statement, except that the Deputy
                            Inspector General provided additional information on successful criminal
                            investigations of charge card abuse, a topic of particular interest to the
                            Subcommittee. He stressed that it was perilous to abuse the public's trust
                            by misusing government charge cards because criminal sanctions
                            frequently result.

INTELLIGENCE                See the Classified Annex to this report for intelligence review activities
REVIEW                      during the period, as well as summaries of classified reports on other
                            matters.




                                                 15
Chapter One                                    Semiannual Report to the Congress




              This page left blank intentionally




                            16
Semiannual Report to the Congress                                                         Chapter Two




CHAPTER TWO - CHARGE CARD ABUSE

INTRODUCTION                This chapter focuses on the risk of fraud and other abuse in the DoD
                            charge card programs. These programs are a key component of
                            acquisition improvement because they greatly reduce the administrative
                            burden on contracting and finance offices, speed up purchasing, and
                            reduce paperwork. The challenges to DoD are to maintain sound manage-
                            ment controls that are not overly burdensome and to enforce the
                            accountability of cardholders.

                            The DoD uses charge cards for a multitude of small purchases. About 94
                            percent of DoD dollars for buying goods and services was placed on
                            contracts or similar instruments in fiscal year 2001. The 6 percent placed
                            on credit cards was spread over 37 million transactions, an average of
                            117,000 transactions daily. Each of the four DoD charge card programs is
                            discussed below.

PURCHASE                    The DoD Purchase Card Program is used for purchasing supplies and
CARDS                       services. Examples are tools, training, computer equipment, office
                            supplies, landscape services, and construction materials. About 232,000
                            cards were issued as of early 2002. During fiscal year 2001, there were
                            10.9 million DoD purchase card transactions worth $6.1 billion.

                            Executive Order 12931, Federal Procurement Reform, October 13, 1994,
                            mandated the increased use of purchase cards by government agencies.
                            DoD use gradually expanded during the 1990's. Between 1996 and late
                            2001, DoD internal auditors issued 382 reports on purchase card program
                            implementation, with by far the heaviest coverage provided by the Air
                            Force Audit Agency. In December 2001, the OIG DoD issued a summary
                            of those reports, which indicated a widespread lack of training, poor
                            management o versig ht, and some mi suse of cards. Nu merou s
                            recommendations were made, mostly at base or installation level.

                            In March 2002, the OIG DoD reported the results of a comprehensive
                            audit that used data mining techniques to identify questionable trans-
                            actions from purchase card bank records. The audit indicated problems in
                            selecting officials to review the cardholders' transactions, assigning
                            spending ceilings, enforcing contract provisions for the blocking of
                            certain transactions by the banks, identifying purchases made from closed
                            accounts, limiting the number of cards issued, and avoiding abuse of
                            convenience checks. For example:


                                                 17
Chapter Two                                               Semiannual Report to the Congress




                      •   At an Air Force wing with an annual budget of $130 million, the
                          cardholders had a combined spending limit of $6.6 billion;

                      •   The banks with the purchase card contracts had not blocked $4
                          million in transactions with unauthorized merchant codes like
                          escort services, bail bondsmen, and jewelry stores; however,
                          further analysis showed the codes were wrong and nearly all of
                          those transactions were appropriate; and

                      •   390 purchases were made from closed accounts in one month.

                 Since 1999, the DCIS has investigated 17 cases involving misuse of
                 purchase cards. Those cases resulted in 16 convictions and over $953,000
                 in court ordered restitution. Another 17 cases are ongoing. Successful
                 investigations by the Military Criminal Investigative Organizations also
                 have shown that abusers of DoD purchase cards run high risk.

 Case Examples   A GS-14 manager at the Defense Automated Printing Service (DAPS),
                 New Orleans, Louisiana, established Diversified Automated Printing
                 Service (Diversified), a private company. Using Diversified, the DAPS
                 employee fraudulently charged over $300,000 on his purchase card. He
                 also enlisted other companies in the New Orleans area to make fraudulent
                 charges to the DoD purchase card. At his direction, these companies
                 issued checks to Diversified. In return, he allowed the companies to make
                 fraudulent charges to the DAPS card for the amount of the check, plus a
                 fee, defrauding the DoD of more than $100,000. Likewise, in his official
                 capacity he received checks from the charge card bank for reimbursement
                 of excessive interest and penalties paid on purchase card charges made by
                 DAPS. These checks, payable to "DAPS," were diverted into the
                 Diversified account, which had the same four-letter abbreviation,
                 defrauding the DoD of more than $53,000.

                 A proactive project generated two cases in the Washington, D.C., area. To
                 date, 10 individuals, including 7 who were either military members or
                 DoD civilian employees, have been convicted. The schemes involved four
                 companies that were actually or ostensibly in the business of supplying
                 office products to the DoD. The schemes involved DoD personnel
                 funneling business to specific small office supply companies that inflated
                 the price of the products bought by their accomplices with DoD charge
                 cards. These companies provided kickback payments to the DoD person-
                 nel. In some cases DoD personnel also set up their own businesses, acted
                 as "silent partners," and shared in the profit resulting from fraudulent or
                 inflated-cost transactions using the card. To date, DoD fraud losses

                                       18
Semiannual Report to the Congress                                                         Chapter Two




                            exceeding $910,000 have been identified. These investigations and 15
                            others are ongoing.

                            A Navy civilian employee was convicted of theft of government property
                            and sentenced to 3 years probation, 4 months of home confinement, and
                            ordered to pay a $1,000 fine. An anonymous tip and subsequent command
                            audit of purchases made with his card revealed an abnormally large
                            amount of questionable purchases. The employee admitted to stealing a
                            large part of the equipment and supplies he purchased using his DoD
                            charge card. The dollar loss to the Government totaled $20,000.

                            A Navy military member received 18 months confinement, forfeiture of
                            all pay and allowances, reduction in rank, a $5,000 fine, and a bad
                            conduct discharge, after being convicted at a general court-martial of
                            larceny, wrongful appropriation, and possession of controlled substances.
                            The Service member used a DoD charge card to buy computer equipment
                            for his personal use. The member admitted that the computers were
                            subsequently sold to pay for illegal drugs and to pay off debts.

                            A Navy military member used his card to purchase $138,000 worth of
                            merchandise that was neither delivered to nor used by his command. He
                            used the equipment himself or sold it. The member pled guilty to absence
                            without leave and failure to obey order or regulation, and was sentenced
                            to 36 months confinement, reduced to 24 months in exchange for a guilty
                            plea, reduction in rank, and a bad conduct discharge.

                            A Navy enlisted person used his card to make purchases for personal use.
                            Two additional Navy members assigned to the same command admitted
                            to having knowledge of a scheme in which false documents were
                            routinely submitted through the supply system, resulting in the purchase
                            of power tools and other equipment for resale. At a general court-martial,
                            the cardholder was convicted of conspiracy, wrongful disposal of military
                            property, and given a bad conduct discharge. The second member was
                            convicted at a special court-martial of impeding an investigation by
                            receiving or delivering stolen military property and conspiracy, and
                            received 30 days confinement, reduction in rank, and restriction to base
                            for 60 days. The third member was convicted at a special court-martial of
                            wrongfully receiving military property and impeding an investigation, and
                            received 45 days confinement, reduction in rank, and a bad conduct
                            discharge.

                            An Air Force noncommissioned officer was convicted of wrongful
                            appropriation of government property and larceny at a general court-

                                                 19
Chapter Two                                             Semiannual Report to the Congress




               martial. She received 4 months confinement, forfeiture of $4,000, and
               reduction of rank by three grades. The sergeant received gift certificates
               from a local vendor after returning items purchased with a purchase card.
               She subsequently used the certificates for herself. The sergeant also
               purchased items to be used in a dormitory at the base and had them
               installed instead in her home.

TRAVEL CARDS   The DoD Travel Card Program is used for transportation, lodging, and
               other travel expenses for DoD civilian and military personnel. About 1.4
               million cards are in circulation. During fiscal year 2001, there were 26
               million travel card transactions costing $3.4 billion.

               In March 2002, the OIG DoD issued a summary report on travel card
               program coverage by DoD auditors. From fiscal year 1999 through 2001,
               there were 31 applicable reports. The Air Force Audit Agency issued 27
               reports, the Army Internal Review Office issued 2 reports, and the OIG
               Defense Intelligence Agency issued 2 reports. All of the reports addressed
               one or more of the following systemic issues:

                    •   Management Oversight (27 reports);

                    •   Card Use (23 reports);

                    •   Account Reconciliation (16 reports); and

                    •   Training (16 reports).

               In general, the purchase card and travel card programs pose similar
               challenges because of the huge numbers of cardholders and transactions.
               Travel cards are somewhat easier to monitor because their use is limited
               to a much more narrow range of goods and services than purchase cards,
               and generally there is clear documentation of what travel was authorized.

AIR CARD       The DoD Air Card Program facilitates purchases of fuel and other support
PROGRAM        for military aircraft at civilian airports. About 20,000 cards were used to
               make 210,000 transactions worth $211 million during fiscal year 2001.

               Fraud was detected in this program several years ago, and its current
               vulnerability is being assessed by an ongoing OIG DoD audit.

FLEET CARD     The Fleet Card Program is the smallest of the DoD charge card programs.
PROGRAM        Its purpose is to purchase fuel and other support for government fleet


                                     20
Semiannual Report to the Congress                                                         Chapter Two




                            vehicles. Fleet card purchases were about $15 million in fiscal year 2001.
                            The OIG DoD plans to audit this program within the next 2 years.

RECENT                      On June 14, 2001, the Under Secretary of Defense (Comptroller) issued a
MANAGEMENT                  memorandum, "Implementation of Changes to the Department of Defense
ACTIONS                     (DoD) Travel Card Policies to Reduce Delinquency Rates," to address
                            travel card delinquency. The memorandum stated that the Defense
                            Finance and Accounting Service and the travel card contractor signed a
                            task order modification on April 11, 2001, to address the delinquency
                            problem. The task order implemented new policies that encourage DoD
                            members to pay account bills in a timely manner and reduce the financial
                            risk to the travel card contractor.

                            On August 14, 2001, the Director, Defense Procurement, requested that
                            the Inspector General of the DoD, provide central coordination of future
                            purchase card audits. In response, the Inspector General of the DoD
                            established a new audit planning subgroup on credit cards to provide
                            centralized oversight of audit coverage.

                            On September 21, 2001, the Under Secretary of Defense (Comptroller)
                            issued the memorandum, "Management of the Department of Defense
                            Travel Card," to provide new procedures and to remind travel cardholders
                            of existing procedures to reduce delinquent accounts and card misuse. The
                            memorandum acknowledged congressional and media criticism of poor
                            travel card controls and stated that the levels of unpaid debt and
                            unauthorized travel card use were unacceptable.

                            On November 6, 2001, the Under Secretary of Defense (Comptroller)
                            informally issued a set of financial management metrics for evaluation.
                            Travel card delinquency metrics are part of the financial management
                            metrics. These metrics currently are being refined.

                            In December 2001, the Defense Finance and Accounting Service, Defense
                            Manpower Data Center, and OIG DoD agreed to develop a prototype
                            analytical program, using data mining technology to identify purchase
                            card transactions having an increased probability of fraud or abuse.
                            Subsequently, this joint project has expanded to include the Army, Navy,
                            and Air Force audit and criminal investigative organizations.

                            On March 12, 2002, the Under Secretaries of Defense (Comptroller) and
                            (Acquisition, Technology, and Logistics) issued a joint memorandum
                            about the need for improved internal controls over the use of purchase
                            cards to preclude fraud, waste, and abuse. A working group, which

                                                 21
Chapter Two                                             Semiannual Report to the Congress




              includes OIG DoD advisors, was established to recommend improved
              policies, procedures, and controls, and to lead efforts to inform card-
              holders and their supervisors of their responsibilities. This group will also
              facilitate implementation of the numerous DoD audit and General
              Accounting Office recommendations on how to improve these programs.

SUMMARY       The DoD is well aware of the need to improve management controls to
              reduce risk in its charge card programs. The weak state of those controls
              left numerous opportunities for fraud and other abuse. The fact that
              misuse of the cards was not rampant is a tribute to the honesty of the vast
              majority of cardholders. Implementing more meaningful controls will be
              challenging because of the huge volume of transactions made with charge
              cards; however, vulnerabilities can be greatly reduced if sufficient
              management emphasis is applied. We plan to continue audit and investi-
              gative coverage in this area to assist in identifying vulnerabilities and
              needed improvements.




                                    22
Semiannual Report to the Congress                                                                    Appendix A


                        APPENDIX A*
 REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



  Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
  consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
  DoD.

  For copies of reports that are not classified or otherwise sensitive from a national security or legal
  standpoint, contact:

             OIG DoD                                     Army Audit Agency
             (703) 604-8937                              (703) 681-9863
             www.dodig.osd.mil

             Naval Audit Service                         Air Force Audit Agency


                      Summary of Number of Reports by Issue Area
                           October 1, 2001- March 31, 2002

                                            OIG DoD            Military Depts.                  Total
 Readiness                                      2                         6                           8
 Information Technology                         7                         6                          13
 Management
 Information Security                           7                         1                           8
 Other Security Concerns                        1                         2                           3
 Acquisition                                   20                       14                           34
 Financial Management                          19                       33                           52
 Health Care                                    3                         3                           6
 Logistics                                      8                       17                           25
 Infrastructure and Environment                 5                       10                           15
 Human Capital                                   -                        8                           8
 Total**                                       72                      100                         172
 The OIG DoD also issued 3 reports and the Military Department audit agencies issued 6 reports on audit
  oversight reviews. For further information on intelligence-related reports, including those issued by
  other Defense agencies, refer to the classified annex to this report.

 *Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
  5(a)(6).



                                                      23
Appendix A                                                           Semiannual Report to the Congress


                                  D-2002-014 Development of             F2002-0004-B05800 System
READINESS                         the Defense Finance and               Telecommunication
                                  Accounting Service Corporate          Engineering Management (2/27/
                                  Database and Other Financial          02)
IG, DoD                           Management Systems (11/7/01)
D-2002-006 Management of
Chemical and Biological           D-2002-018 Development and            INFORMATION
Defense Resources in the          Implementation of Wide Area
                                  Workflow-Receipts and                 SECURITY
National Guard and Reserves
(CLASSIFIED) (10/16/01)           Acceptance (11/28/01)
                                                                        IG, DoD
D-2002-052 Meteorological         D-2002-039 Automation of the
and Oceanographic Support         DoD Export License Applica-           D-2002-008 Controls Over the
From Continental United           tion Review (1/15/02)                 Computerized Accounts Payable
States-Based Support Centers                                            System at Defense Finance and
(2/19/02)                         D-2002-044 DoD Financial and          Accounting Service Kansas City
                                  Feeder Systems Compliance             (10/19/01)
Naval Audit Service               Process (1/29/02)
                                                                        D-2002-015 Summary of
N2002-0008 Navy F/A-18            D-2002-046 Acquisition                Security Control Audits of DoD
Readiness Reporting (11/15/01)    Management of the Defense             Finance and Accounting
                                  Counterintelligence Information       Systems (11/7/01)
N2002-0011 Marine Corps           System (2/6/02)
Infantry/Armor Readiness                                                D-2002-030 Implementation of
Reporting (11/21/01)              D-2002-062 Air Force Web Site         DoD Public Key Infrastructure
                                  Administration, Policies, and         Policy and Procedures
N2002-0020 Institutional          Practices (3/13/02)                   (12/28/01)
Training Readiness Reporting
(12/21/01)                        Naval Audit Service                   D-2002-037 Data Processing
                                                                        Control Issues for the FY 2000
N2002-0030 Installation           N2002-0013 Auditor General
                                                                        Military Retirement Fund (FOR
Readiness Reporting (2/20/02)     Advisory on the Navy Marine
                                                                        OFFICIAL USE ONLY)
                                  Corps Intranet Assist (11/30/01)
                                                                        (1/14/02)
N2002-0031 Assault Craft Unit
Operational Readiness (2/25/02)   N2002-0024 Department of the
                                                                        D-2002-056 Controls Over
                                  Navy Implementation of Enter-
                                                                        Vendor Payments Made for the
Air Force Audit Agency            prise Resource Planning
                                                                        Army and Defense Agencies
F2002-0002-B05800 Air             Solutions (1/25/02)
                                                                        Using the Computerized
National Guard Command Posts      N2002-0034 Department of the          Accounts Payable System
(1/17/02)                         Navy Publicly Accessible Web          (3/6/02)
                                  Sites (3/1/02)
                                                                        D-2002-067 Security Controls
INFORMATION                       N2002-0036 Marine Corps               Over the Defense Finance and
                                                                        Accounting Service Corporate
TECHNOLOGY                        Implementation of the Defense
                                                                        Database (FOR OFFICIAL USE
                                  Property Accountability System
MANAGEMENT                        (3/13/02)                             ONLY) (3/20/02)

                                  Air Force Audit Agency                D-2002-072 Information
IG, DoD                                                                 Assurance Controls for the
D-2002-005 Management of the      F2002-0003-B05800 Satellite           Source Data Collection System
Joint Simulation System           Operations and Training               Used for Purchased Care Data
(10/12/01)                        (2/27/02)                             (3/26/02)




                                                 24
Semiannual Report to the Congress                                                         Appendix A


Air Force Audit Agency              D-2002-022 Contract Closeout      D-2002-059 Results of the
F2002-0001-C06600 Security          at the National Security Agency   Defense Logistics Agency
Controls Over Air Force             (CLASSIFIED) (12/6/01)            Strategic Supplier Alliance With
Medical Treatment Facility                                            Honeywell International,
                                    D-2002-023 Independent            Incorporated (3/13/02)
Systems (FOR OFFICIAL USE           Review of the Administrative
ONLY) (3/22/02)                     Appeal Authority Adjustments      D-2002-061 Pilot Program to
                                    for Transition Costs to the       Treat Procurements of Certain
                                    Military Retired and Annuitant    Commercial Services as
OTHER SECURITY                      Pay Functions Cost Comparison     Commercial Items (3/13/02)
CONCERNS                            Study (12/11/01)
                                                                      D-2002-065 Summary of DoD
                                    D-2002-026 Acquisition of the     Travel Card Program Audit
IG, DoD                             Vertical Take-Off and Landing     Coverage (3/18/02)
D-2002-074 Interagency              Tactical Unmanned Aerial
Review of Federal Automated         Vehicle (12/14/01)                D-2002-066 Buy American Act
Export Licensing Systems                                              Issues on Procurements of
(3/29/02)                           D-2002-029 Summary of DoD         Military Clothing (3/20/02)
                                    Purchase Card Program Audit
Army Audit Agency                   Coverage (12/27/01)               D-2002-075 Controls Over the
                                                                      DoD Purchase Card Program
A-2002-0001-AMI Technology          D-2002-032 Audit of Major         (3/29/02)
Transfers of Classified and         Defense Acquisition Programs
Sensitive Information (10/9/01)     Cycle Time (12/28/01)             Army Audit Agency
A-2002-0234-AMI Technology                                            A-2002-0004-AMA Contract
                                    D-2002-035 Protection of          Administration at Army
Transfers of Classified and         Strategic Systems Against Radio
Sensitive Information                                                 Ammunition Plants (11/5/01)
                                    Frequency Threats
(02/25/02)                          (CLASSIFIED) (1/4/02)             A-2002-0052-AMA
                                                                      Rechargeable Batteries for
                                    D-2002-036 Acquisition of the     Communications and Electronic
ACQUISITION                         Naval Fires Control System        Systems (11/9/01)
                                    (1/8/02)
IG, DoD                                                               A-2002-0067-IME Support for
                                    D-2002-043 Defense Reutili-       Nonmedical Chemical and
D-2002-001 Audit of the Titan       zation And Marketing Service      Biological Defensive Equipment
Program Contracts (FOR              Public/Private Competition        (11/9/01)
OFFICIAL USE ONLY)                  (1/25/02)
(10/2/01)                                                             A-2002-0066-AMA
                                    D-2002-053 The National           Administering Service Contracts
D-2002-011 Acquisition of the       Security Agency Contract          (11/20/01)
Wide Area Munition (10/24/01)       Management System
                                    (CLASSIFIED) (2/19/02)            A-2002-0114-AMA Weapon
D-2002-012 Acquisition of the                                         System Requirements--Thermal
Firefinder (AN/TPQ-47) Radar        D-2002-054 Reporting of Cost      Sight (1/23/02)
(10/31/01)                          Growth of Major Defense
                                    Acquisition Programs (2/26/02)    A-2002-0115-AMA Weapon
D-2002-021 Maintenance and                                            System Requirements--Gimbal
Repair Type Contracts Awarded       D-2002-058 Defining Over-         Assembly (1/23/02)
by the U.S. Army Corps of           arching Requirements for the
Engineers Europe (12/5/01)          Joint Service Lightweight         Naval Audit Service
                                    Standoff Chemical Agent
                                    Detector and Other Chemical       N2002-0012 Non-Acquisition
                                    Detectors (3/11/02)               Programs (11/23/01)




                                                  25
Appendix A                                                           Semiannual Report to the Congress


N2002-0014 Effectiveness of        D-2002-009 Valuation of              D-2002-045 Abnormal Inven-
System and Equipment Warran-       Inven-tories in the Defense          tory Balances for the Navy
ties at Selected Department of     Logistics Agency Standard            Working Capital Fund (1/30/02)
the Navy Activities (12/4/01)      Automated Materiel
                                   Management System (10/22/01)         D-2002-050 Army Military
N2002-0015 Contracting and                                              Equipment Reporting During
Related Functions at Naval         D-2002-017 Advanced Sensor           FY 2000 (FOR OFFICIAL USE
Security Group Activity, Sugar     Applications Program Joint           ONLY) (2/15/02)
Grove, WV (12/13/01)               Project (11/23/01)
                                                                        D-2002-055 Independent
N2002-0023 Management of           D-2002-019 Checks Issued             Auditor’s Report on the DoD
the Purchase Card Program at       Differences for Deactivated          FY 2001 Agency-Wide
Public Works Center, San           Disbursing Stations (11/28/01)       Financial Statements (2/26/02)
Diego, CA (1/10/02)
                                   D-2002-027 Closing Overage           D-2002-070 DoD Payroll
N2002-0032 Management of           Contracts Prior to Fielding a        Withholding Data for FY 2000
Purchase Cards at Naval            New DoD Contractor Payment           (3/25/02)
Support Activity Washington        System (12/19/01)
(2/25/02)                                                               D-2002-071 DoD Management
                                   D-2002-031 Air Force Military        of the North Atlantic Treaty
Air Force Audit Agency             Equipment Reporting During           Organization Security
F2002-0001-C06400 C-17             FY 2000 (FOR OFFICIAL USE            Investment Program (3/26/02)
Integrated Product Team Partici-   ONLY) (12/28/01)
                                                                        D-2002-073 Ending Balance
pation, Phase III (12/7/01)        D-2002-033 Management Costs          Adjustments to General Ledger
F2002-0004-B05100 Most             Associated With the Defense          Data for the Army General Fund
Efficient Organization             Enterprise Fund (12/31/01)           (3/27/02)
Performance Reviews                D-2002-038 Financial                 D-2002-076 Funding Invoices
(12/27/01)                         Reporting for the Other Defense      to Expedite the Closure of
F2002-0002-C06400 C-17             Organizations-General Funds at       Contracts Before Transitioning
Integrated Product Team Partici-   the Defense Finance and              to a New DoD Payment System
pation, Phase IV (2/6/02)          Accounting Service San               (3/29/02)
                                   Antonio (1/14/02)
                                                                        Army Audit Agency
                                   D-2002-040 Promptness of FY
FINANCIAL                          2002 Second Quarter DoD
                                                                        A-2002-0040-IMH Financial
                                                                        Controls--Golf Course Opera-
MANAGEMENT                         Payments to the U.S.Treasury         tions (11/1/01)
                                   for District of Columbia Water
                                   and Sewer Services (1/15/02)         A-2002-0041-IMH Morale
IG, DoD
                                                                        Welfare and Recreation
D-2002-002 Reporting the Cost      D-2002-041 Financial                 Activities--Financial Controls
of Military Personnel Assigned     Reporting for the Defense            (11/1/01)
to Defense Agencies (10/2/01)      Logistics Agency-General
                                   Funds at Defense Finance and         A-2002-0053-AMA Funding
D-2002-007 Promptness of FY        Accounting Service Columbus          for Command and Control
2002 First Quarter DoD Pay-        (1/18/02)                            Systems (11/8/01)
ments to the U.S. Treasury for
District of Columbia Water and     D-2002-042 U.S. Special              A-2002-0068-AMW Inventory
Sewer Services (10/15/01)          Operations Command Military          and Related Property Net
                                   Equipment Reporting During           (11/19/01)
                                   FY 2000 (FOR OFFICIAL USE
                                   ONLY) (1/22/02)




                                                 26
Semiannual Report to the Congress                                                           Appendix A


A-2002-0080-AMW Accounts            N2002-0028 Fiscal Year 2001         F2002-0005-B05800
Receivable and Other Assets--       and 2000 Department of the          Commercial Space Launch
Supply Management Army              Navy General Fund Financial         Support Costs (3/5/02)
Wholesale Division--Army            Statements (2/13/02)
Working Capital Fund                                                    F2002-0001-C06800 Air Force
(11/26/01)                          N2002-0029 Fiscal Year 2001         Working Capital Fund, Fiscal
                                    and 2000 Department of the          Year 2000 Statement of
A-2002-0007-FFG Army's              Navy Working Capital Fund           Budgetary Resources - Selected
General Fund Principal Finan-       Financial Statements (2/13/02)      Information Services Activities
cial Statements for Fiscal Year                                         Group General Ledger Accounts
2000-Financial Reporting of         N2002-0033 Navy Implemen-           (10/25/01)
Civilian Accrued Annual Leave       tation of the Federal Managers'
(11/28/01)                          Financial Integrity Act (2/28/02)   F2002-0002-C06800 Air Force
                                                                        Working Capital Fund, Fiscal
A-2002-0096-AMW Accounts            N2002-0035 Fiscal Year 2000         Year 2000 Statement of
Receivable Bills--Supply            National Defense Property,          Budgetary Resources - Selected
Management Army Wholesale           Plant, and Equipment Deferred       Retail Supply General Ledger
Division--Army Working              Maintenance (3/13/02)               Accounts (10/26/01)
Capital Fund (12/19/01)
                                    N2002-0037 Validation of            F2002-0003-C06800 Internal
A-2002-0122-AMW Worker's            Selected Unliquidated Base          Controls Related to the Fiscal
Compensation--Army Working          Realignment and Closure             Year 2001 Air Force Working
Capital Fund (1/24/02)              Obligations (3/18/02)               Capital Fund Financial State-
                                                                        ments (1/30/02)
A-2002-0103-AMW Worker's            Air Force Audit Agency
Compensation (1/28/02)              F2002-0001-B05300 General           F2002-0004-C06800 Air Force
                                    Fund Disbursements, Fiscal          Working Capital Fund, Fiscal
A-2002-0246-FFC Fiscal Year         Year 2000 (10/4/01)                 Year 2001 Fund Balance With
2001 Financial Statements                                               Treasury (1/30/02)
(2/8/02)                            F2002-0002-B05300 Revenue
                                    and Other Financing Sources -       F2002-0005-C06800 Opinion
A-2002-0260-AML Causes for          Journal Vouchers and Adjust-        on Fiscal Year 2001 Air Force
Financial Discrepancies             ments, Fiscal Year 2000             Working Capital Fund Financial
(3/29/02)                           (10/4/01)                           Statements (2/8/02)
Naval Audit Service                 F2002-0003-B05300 Opinion
N2002-0004 Fiscal Year 2000         on Fiscal Year 2001 Air Force       HEALTH CARE
Reporting and Visibility of Air     Consolidated Financial State-
Launched Decoys (10/25/01)          ments (2/8/02)
                                                                        IG, DoD
N2002-0010 Naval Audit              F2002-0001-B05400                   D-2002-010 Armed Services
Service Opinion on Proposed         Memorandum Report, Duplicate        Blood Program Defense Blood
Fiscal Year 2001 Annual State-      Airfare Payments (12/28/01)         Standard System (10/22/01)
ment of Assurance (11/28/01)
                                    F2002-0002-B05400 Controls          D-2002-024 Navy Fleet
N2002-0018 Military Sealift         Over the Integrated Automated       Hospital Requirements
Command Financial Manage-           Travel System (2/15/02)             (CLASSIFIED) (12/12/01)
ment System (12/18/01)
                                    F2002-0003-B05400 Controls          D-2002-034 Military Health
N2002-0025 Followup Audit:          Over Duplicate Payments             System Optimization Plan
Financial Audit Recommenda-         (3/5/02)                            (12/31/01)
tions to Naval Activities
(1/28/02)                           F2002-0004-B05400 Basic             Army Audit Agency
                                    Allowance for Housing
                                                                        A-2002-0125-IMH Pharma-
                                    Procedures (3/20/02)
                                                                        ceutical Management (1/25/02)


                                                   27
Appendix A                                                         Semiannual Report to the Congress


Air Force Audit Agency              A-2002-0205-AMM Army Oil          F2002-0003-C06100 C-5
F2002-0001-B05100 Medical           Analysis Program (3/6/02)         Aircraft Engine Replacement
Facility Cleaning and Equip-                                          Requirements (3/22/02)
                                    A-2002-0213-AMM
ment Management (10/26/01)          Maintenance Management            F2002-0004-C06100 Base-
F2002-0005-B05100 Mental            Systems (3/11/02)                 Level Reparable Item Trans-
Health Services (2/6/02)                                              actions (3/22/02)
                                    A-2002-0210-AMA Wholesale
                                    Level Spare Parts With Zero       F2002-0001-C06200
                                    Balances (3/12/02)                Intercontinental Ballistic Missile
LOGISTICS                                                             Maintenance (10/25/01)
                                    A-2002-0224-AMM Staffing
IG, DoD                             and Capacity of Tables of         F2002-0002-C06200
                                    Distribution and Allowances       Unserviceable Secondary Item
D-2002-003 Accountability and       Maintenance Activities, U.S.      Control Activity Assets
Control of Materiel at the          Training and Doctrine             (11/9/01)
Tobyhanna Army Depot                Command (3/18/02)
(10/4/01)                                                             F2002-0003-C06200 Followup
                                    A-2002-0255-AMM U.S.              Audit, Air Mobility Command
D-2002-004 Import Processing        Army Aviation Hydraulic           En Route Maintenance Opera-
of DoD Cargo Arriving in the        System Contamination Program      tions (2/20/02)
Republic of Korea (10/4/01)         (3/26/02)
D-2002-013 The Defense              Naval Audit Service               INFRASTRUCTURE
Supply Center Richmond
Qualified Products List Program     N2002-0021 Ordnance               AND ENVIRONMENT
(11/2/01)                           Inventory Accuracy Processes
                                    (12/21/01)
D-2002-016 Government                                                 IG, DoD
Performance and Results Act         N2002-0022 Department of the      D-2002-020 General Officer
Performance Measure for DoD         Navy's Fleet Modernization        Quarters at Kaneohe Bay,
Total Asset Visibility (11/21/01)   Program (1/8/02)                  Hawaii; Camp Pendleton,
                                                                      California; and Albany, Georgia
D-2002-025 Allegations              N2002-0027 Government
                                                                      (12/5/01)
Concerning Defense Reutili-         Performance and Results Act
zation and Marketing Service        Fiscal Year 2000 Overseas         D-2002-028 Report on Foreign
Business Practices (12/17/01)       Measures for the Navy and         Country Environmental
                                    Marine Corps (2/6/02)             Program (CLASSIFIED)
D-2002-057 Effectiveness of                                           (12/28/01)
the Joint Total Asset Visibility    Air Force Audit Agency
Program (3/11/02)                   F2002-0001-B05800 War             D-2002-048 General and Flag
                                    Materiel Requirements for         Officer Quarters at Fort Shafter,
D-2002-060 Management of            Tanks, Racks, Adapters, and       Hawaii; and Fort McPherson,
Terminal Items at the Defense       Pylons (U) (CLASSIFIED)           Georgia (2/12/02)
Logistics Agency (3/13/02)          (10/1/01)
                                                                      D-2002-049 Report on Foreign
D-2002-068 DoD International        F2002-0001-C06100 Air Force       Country Environmental
Personal Property Shipment          Reserve Small Arms Manage-        Program (CLASSIFIED)
Rates (3/22/02)                     ment (1/2/02)                     (2/14/02)
Army Audit Agency                   F2002-0002-C06100                 D-2002-051 Summary Report
A-2002-0134-AMA Reusing             Memorandum Report, Readi-         on the Joint Audit of DoD
And Disposing of Missile            ness Spares Package Require-      Wastewater Treatment Systems
Munitions Phase II (2/25/02)        ments (1/16/02)                   (2/15/02)




                                                  28
Semiannual Report to the Congress                                                          Appendix A


Army Audit Agency                                                      D-2002-6-002 Quality Control
A-2002-0045-IME Army                HUMAN CAPITAL                      Review of Deloitte & Touche
Wastewater Systems (11/9/01)                                           LLP Office of Management and
                                                                       Budget Circular A-133 Audit
                                    Army Audit Agency                  Report of Carnegie Mellon
A-2002-0098-IMO Energy
Savings Performance Contracts       A-2002-0016-AMI Army               University, Fiscal Year Ended
(12/14/01)                          Foreign Language Program           June 30, 1999 (12/11/01)
                                    Requirements Followup
A-2002-0099-IME The Army            (10/15/01)                         D-2002-6-003 Quality Control
Installation Conservation                                              Review of Defense Contract
Program--Outleasing (12/19/01)      A-2002-0002-FFF Delayed            Audit Agency and KPMG LLP
                                    Entry Program Management           Office of Management and
A-2002-0221-IME Remedial            (10/31/01)                         Budget Circular A-133 Audit
Activities at the St. Louis Area                                       Report of SRI International,
Sites (2/19/02)                     A-2002-0021-FFF U.S. Army          Fiscal Year Ended December
                                    Reserve Full-Time Support          25, 1999 (1/14/02)
A-2002-0138-IME Overhead            Program (11/19/01)
and General and Administrative                                         Naval Audit Service
Costs on Environmental Sub-         A-2002-0109-FFF Civilian
                                    Personnel Regionalization          N2002-0002 Quality Control
contracts (2/21/02)                                                    Review of Audit 2001-0007:
                                    (1/10/02)
                                                                       "Marine Corps Total Ownership
Naval Audit Service
                                    Naval Audit Service                Cost-Reduction Plans" (10/5/01)
N2002-0003 Military Construc-
tion Project Development for        N2002-0009 Use of Navy             N2002-0005 Independent
Fiscal Year 2003 Program            Recruiters to Make Initial Calls   Review of the Northeast Region
(10/26/01)                          to Prospective Recruits            Personal Property Services
                                    (11/16/01)                         Function at the Fleet and
Air Force Audit Agency                                                 Industrial Supply Center,
                                    Air Force Audit Agency             Norfolk, VA (10/26/01)
F2002-0001-B05200 Brooks
City-Base Project (12/24/01)        F2002-0002-B05100 Foreign
                                    Language Proficiency Pay           N2002-0006 Independent
F2002-0002-B05200                   (10/26/01)                         Review: Naval Supply Systems
Environmental Compliance                                               Command Southeast Region
Cleanup Liabilities (3/8/02)        F2002-0003-B05100 Special          Household Goods Function,
                                    Retirement Program (12/4/01)       Jacksonville, FL (11/2/01)
F2002-0003-B05200
Memorandum Report, Los              F2002-0006-B05100 Core             N2002-0007 Independent
Angeles AFB Land Conveyance         Menu Program (3/18/02)             Review: Administrative and
(3/21/02)                                                              Clerical Functions at Naval Sea
                                                                       Systems Command,
F2002-0004-B05200 Military          AUDIT OVERSIGHT                    Washington, DC (11/2/01)
Construction Project Changes        REVIEWS
(3/20/02)                                                              N2002-0017 Independent
                                                                       Review: Tools and Parts
                                    IG, DoD                            Attendant Services Function at
                                                                       the Naval Aviation Depot,
                                    D-2002-6-001 Defense               Cherry Point, NC (12/18/01)
                                    Contract Audit Agency Quality
                                    Assurance Program (12/6/02)        N2002-0026 Independent
                                                                       Review: Environmental
                                                                       Services Function at Navy
                                                                       Public Works Center, Norfolk,
                                                                       VA (2/5/02)




                                                   29
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                            30
Semiannual Report to the Congress                                                                     Appendix B


                                    APPENDIX B*
                     OIG DoD AUDIT REPORTS ISSUED CONTAINING
                    QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                       Potential Monetary Benefits

                                                                       Disallowed             Funds Put to
                 Audit Reports Issued                                    Costs1                Better Use

 D-2002-003 Accountability and Control of Materiel at the                    N/A                $23,500,000
 Tobyhanna Army Depot (10/4/01)
 D-2002-009 Valuation of Inventories in the Defense                          N/A                  65,900,000
 Logistics Agency Standard Automated Materiel
 Management System (10/22/01)
 D-2002-011 Acquisition of the Wide Area Munition                            N/A                268,300,000
 (10/24/01)
 D-2002-024 Navy Fleet Hospital Requirements (12/12/01)                      N/A                   4,400,000
 D-2002-026 Acquisition of the Vertical Take-Off and                         N/A                232,600,000
 Landing Tactical Unmanned Aerial Vehicle (12/14/01)
 D-2002-036 Acquisition of the Naval Fires Control                           N/A                150,300,000
 System (1/8/02)
 D-2002-059 Results of the Defense Logistics Agency                          N/A                  23,634,719
 Strategic Supplier Alliance with Honeywell International,
 Incorporated (3/13/02)
 D-2002-071 DoD Management of the North Atlantic                             N/A                  38,600,000
 Treaty Organization Security Investment Program
 (3/26/02)
 Totals                                                                       0                $807,234,719
 *Fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
  5(a)(6)
 1There were no OIG audit reports during the period involving disallowed costs.




                                                       31
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                               32
Semiannual Report to the Congress                                                                      Appendix C


                                             APPENDIX C*
                                         FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)

                                                                                                   Funds Put
                                   Status                                          Number           to Better
                                                                                                      Use1
 A. For which no management decision had been made by the                                 36          $87,3672
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                        72           807,450
      Subtotals (A+B)                                                                   108            894,817
 C. For which a management decision was made during the reporting                         80           851,602
         period.
      (i)    dollar value of recommendations that were agreed to by
             management
             - based on proposed management action                                                     312,438
             - based on proposed legislative action
      (ii)   dollar value of recommendations that were not agreed to by                               539,1643
             management
 D. For which no management decision has been made by the end of                          28            43,215
         the reporting period.

      Reports for which no management decision was made within 6
            months of issue (as of March 31, 2002).3                                      34                  0

 1There  were no OIG DoD audit reports issued during the period involving questioned costs.
 2
  Claimed potential monetary benefits of $12.9 million had been omitted from the previous schedule.
 3On 8 audit reports with a total of potential funds put to better use of $538.8 million, management has agreed
  to take the recommended actions, but the amount of agreed monetary benefits cannot be determined until
  those actions are completed.
 4OIG DoD Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,” issued April 27, 2001,
  had no management decision made within 6 months of issuance and was still being mediated as of July 1,
  2002. Additional information from management that may result in a decision is expected in July.
  OIG DoD Report No. D-2001-163, “Accounting Entries Made in Compiling the FY 2000 Financial
  Statements for the Working Capital Funds of the Air Force and Other Defense Organizations,” issued July 26,
  2001, and OIG DoD Report No. D-2001-185, “FY 2000 U.S. Army Corps of Engineers Obligations for DoD
  Component Contracts,” issued September 21, 2001, had no management decision as of March 31, 2002, but
  were decided on April 25, 2002, and April 29, 2002, respectively.




*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)(10).

                                                        33
Appendix C                                        Semiannual Report to the Congress




             This page left blank intentionally




                            34
Semiannual Report to the Congress                                                                       Appendix D


                                          APPENDIX D
                                CONTRACT AUDIT REPORTS ISSUED1
                                         ($ in millions)



                                       Reports             Amounts             Questioned          Funds Put to
       Type of Audit2
                                       Issued              Examined              Costs3             Better Use

    Incurred Costs                         11,703            $45,082.3               $364.6                $63.44
    Forward Pricing                         4,431              46,132.9                    --            1,384.25
    Proposals
    Cost Accounting                         1,021                 120.1                 38.6                     --
    Standards

    Defective Pricing                         197              (Note 6)                  7.5                     --

    Totals                                 17,352            $91,335.3               $410.7              $1,447.6
    1This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6
     months ended March 31, 2002. Both “Questioned Costs” and “Funds Put to Better Use” represent potential
     cost savings. Because of limited time between availability of management information system data and
     legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
     reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

     defined as
          Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that
     the costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation,
     Defense Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost
     audits are Operations Audits, which evaluate a contractor’s operations and management practices to identify
     opportunities for increased efficiency and economy; and Special Audits, which include audits of
     terminations and claims.
           Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
     contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
     by definitized contracts.
           Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes
     to disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
     noncompliance with a CAS regulation.
           Defective Pricing - A review to determine whether contracts are based on current, complete, and
     accurate cost or pricing data (the Truth in Negotiations Act).
    3Questioned costs represent costs that DCAA has questioned because they do not comply with rules,

     regulations, laws, and/or contractual terms.
    4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

     that funds could be used more effectively if management took action to implement cost reduction
     recommendations.
    5Represents potential cost reductions that may be realized during contract negotiations.
    6Defective pricing dollars examined are not reported because the original value was included in the audits

     associated with the original forward pricing proposals.




                                                        35
Appendix D                                                      Semiannual Report to the Congress




                Waivers of Advisory and Assistance Service Contracts

  A review is made of each waiver granted by the Department for advisory and assistance services
  contracts related to testing support. This review is required by Section 802, Defense
  Authorization Act for Fiscal Year 1990.

  The Department made no waivers during the period and therefore, no reviews were made by
  the OIG.




                                               36
     If you suspect Fraud, Waste, Abuse, or Mismanagement in
          the Department of Defense, please contact us at:
                       Hotline@dodig.osd.mil
                                 or
                       www.dodig.osd.mil/hotline
                                 or call:
                              800-424-9098




The Hotline is available 24 hours per day. The caller can remain anonymous.
             If you prefer, you may send written complaints to:

                      Office of the Inspector General
                          Department of Defense
                                 Room 929
                           400 Army Navy Drive
                      Arlington, Virginia 22202-4704
